           OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Evaluation Report




       ENERGY STAR Program Can
       Strengthen Controls Protecting
       the Integrity of the Label
       Report No. 2007-P-00028

       August 1, 2007
Report Contributors:	             Laurie Adams
                                  Jerri Dorsey
                                  Jeffrey Fencil
                                  Elizabeth Grossman
                                  Jeffrey Harris




Abbreviations

DOE          Department of Energy
EPA          U.S. Environmental Protection Agency
HVAC         Heating, Ventilating, and Air Conditioning
OAR          Office of Air and Radiation
OIG          Office of the Inspector General
PEARL        Program for the Evaluation and Analysis of Residential Lighting
RSL          Retail Store Level Assessment




Cover image: A compact fluorescent light bulb from the ENERGY STAR qualified list
             (photo courtesy EPA)
                       U.S. Environmental Protection Agency 	                                          2007-P-00028
                                                                                                      August 1, 2007
                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review           ENERGY STAR Program Can Strengthen
We initiated this review to      Controls Protecting the Integrity of the Label
evaluate how effectively the
U.S. Environmental Protection     What We Found
Agency (EPA) is managing
the ENERGY STAR®                 To ensure the efficiency and effectiveness of the ENERGY STAR program and
Product Labeling Program.        the integrity of its label, EPA established several processes. These processes
We specifically sought to        include product specification setting and revision, product self-certification,
determine whether EPA            product verification testing, and label utilization monitoring. We reviewed these
ensures that consumer product    processes and found improvements could be made that could better assure the
specifications are sufficient,   integrity of the ENERGY STAR label for the consumer of home and office
the extent EPA verifies that     products.
products adhere to
specifications, and whether
EPA adequately ensures that      The criteria for revising specifications were unclear and not documented. It was
the ENERGY STAR label is         not evident when or what factors would trigger a specification revision.
properly used.                   Furthermore, EPA does not have reasonable assurance that the self-certification
                                 process is effective. EPA relies on some alternative verification mechanisms, but
Background                       lacks any quality assurance or review of these reported results. The Agency’s
                                 verification testing also lacks a clear documented methodology governing
The ENERGY STAR Product          products selected for verification tests and does not test for statistically valid
Labeling Program identifies      results. Consequently, product efficiency and energy savings reported by
and promotes energy-efficient    manufacturers are, for the most part, unverified by EPA review.
products. EPA reported in
2006 that using ENERGY           We found little oversight in using the ENERGY STAR label in retail stores, which
STAR products prevented          is commonly the purchase point for the consumer. EPA could not provide
estimated greenhouse gas         documentation related to followup actions taken, final results for all retail store
emissions equivalent to those    assessments, or the resolution status of label inconsistencies. We also found that
from 23 million vehicles, and    manufacturers may label and sell products as ENERGY STAR qualified prior to
saving Americans an              submitting test results to the Agency. Using the label on products that do not meet
estimated $12 billion in their   ENERGY STAR requirements may weaken the value of the label and negatively
utility bills.                   impact the ENERGY STAR program.


                                  What We Recommend
For further information,         EPA should strengthen management controls to protect the integrity of the
contact our Office of
Congressional and Public
                                 ENERGY STAR label. EPA should clarify and document the criteria for product
Liaison at (202) 566-2391.       specification revisions. EPA should establish a quality assurance program for its
                                 verification program. Also, EPA should improve its oversight in using the
To view the full report,         ENERGY STAR label by establishing a systematic methodology and procedures
click on the following link:     for monitoring, resolving, and following up on label misuse. EPA disagreed with
www.epa.gov/oig/reports/2007/    many of our conclusions, but stated it had implemented many of the
20070801-2007-P-00028.pdf
                                 recommendations. However, EPA’s planned actions do not address the intent of
                                 our recommendations, and we consider the issues unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          August 1, 2007

MEMORANDUM

SUBJECT:               ENERGY STAR Program Can Strengthen Controls Protecting the
                       Integrity of the Label
                       Report No. 2007-P-00028


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Robert J. Meyers
                       Principal Deputy Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $338,079.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to the
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. We have no objection to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0827
or najjum.wade@epa.gov; or Jeffrey Harris, Director of Special Studies, at (202) 566-0831 or
harris.jeffrey@epa.gov.
                            ENERGY STAR Program Can Strengthen Controls

                                 Protecting the Integrity of the Label



                                 Table of Contents 


Chapters
 1	    Introduction ...........................................................................................................      1

               Purpose ..........................................................................................................    1         

               Background ....................................................................................................       1         

               Noteworthy Program Accomplishments .........................................................                          2

               Scope and Methodology.................................................................................                3

               Prior Audit Coverage ......................................................................................           4


 2	    EPA Processes to Establish and Protect the Integrity of the 

       ENERGY STAR Label ............................................................................................                5

               Product Specification Process........................................................................                 5

               Product Self-Certification Process..................................................................                  6

               Product Verification Testing Process..............................................................                    7

               Product Label Utilization Monitoring Process .................................................                        8


 3	    Transparency Needed in Specification Revision Decisions .............................                                         9

               Product Specifications Set to Identify Top Performers ..................................                              9

               Product Specifications Revision Criteria Not Clear .....................................                             10 

               Conclusion ...................................................................................................       11

               OIG Recommendation....................................................................................               11         

               Agency Comments and OIG Evaluation ........................................................                          11 


 4	    Improving Product Verification ...........................................................................                   12     

               ENERGY STAR Verification Testing Conducted on a Minimal Basis.............                                           12 

               Selection Method Inconsistently Applied ........................................................                     14 

               Cost of ENERGY STAR Verification Testing..................................................                           15 

               Quality Assurance Plan Needs Improvement.................................................                            16 

               Conclusion ...................................................................................................       17         

               OIG Recommendations ..................................................................................               17         

               Agency Comments and OIG Evaluation ........................................................                          17 


 5    Tracking and Monitoring the Use of the ENERGY STAR Label ...........................                                          19 

               Oversight for Label Use in Retail Stores ........................................................                    19 

               Reports Not Finalized and Results Not Documented .....................................                               20

               Results Not Monitored or Tracked..................................................................                   21 

               Products Marketed as ENERGY STAR Prior to EPA Notification ................                                          22 

               Conclusion ...................................................................................................       22

               OIG Recommendations ..................................................................................               23

               Agency Comments and OIG Evaluation ........................................................                          23 


 Status of Recommendations and Potential Monetary Benefits.................................                                         24

                          ENERGY STAR Program Can Strengthen Controls

                               Protecting the Integrity of the Label





Appendices
 A   ENERGY STAR Qualified Product Categories....................................................                               25   


 B   Detailed Scope and Methodology........................................................................                     26   


 C   OIG’s Detailed Analysis of Agency’s Response ...............................................                               28   


 D   Agency Response ................................................................................................           37   


 E   Distribution ...........................................................................................................   44   

                                        Chapter 1
                                        Introduction

Purpose
                As part of an EPA Office of Inspector General (OIG) evaluation agenda to assess
                the Agency’s new approach to environmental protection, we initiated this review
                to evaluate how effectively EPA is managing the ENERGY STAR Product
                Labeling Program. Specifically we sought to determine to what extent does EPA:

                1.	 Ensure that consumer product specifications to obtain and maintain the
                    ENERGY STAR logo are sufficient and up to date?

                2.	 Verify that products adhere to the ENERGY STAR specifications?

                3.	 Ensure that the ENERGY STAR label/logo is properly used?

Background
                Historically, EPA has relied upon regulations to achieve environmental results
                and risk reduction. However, in the early 1990s, Section 103(g) of the Clean Air
                Act directed the Administrator to “conduct a basic engineering research and
                technology program to develop, evaluate, and demonstrate non-regulatory
                strategies and technologies for reducing air pollution.” In 1992, EPA’s Office of
                Air and Radiation (OAR) established the ENERGY STAR Product Labeling
                Program (the ENERGY STAR Program) as an innovative, effective, and efficient
                approach to environmental protection. The ENERGY STAR Program was
                subsequently authorized in the Energy Policy Act of 2005.

                ENERGY STAR is a voluntary program to help businesses and individuals
                protect the environment through superior energy efficiency. The ENERGY
                STAR Program was designed to overcome selected market barriers towards
                adopting cost-effective energy efficient products and services. The program was
                first introduced to recognize and promote energy-efficient computers. It has since
                grown to cover many additional consumer products and services within both the
                residential and commercial settings.1 In 1996, EPA partnered with the
                Department of Energy (DOE) to promote the ENERGY STAR label and broaden
                the range of activities covered.2


1
  ENERGY STAR is composed of three major components: Products, Residential, and Commercial.
2
  A Memorandum of Cooperation was signed jointly on May 29, 1996. The Memorandum described each Agency’s
responsibilities as it relates to using and overseeing the ENERGY STAR logo.


                                                   1

                EPA’s ENERGY STAR budget for Fiscal Year 2006 was approximately $50
                million, of which $38 million was allocated for ENERGY STAR contractor
                support. The remaining $12 million was allocated for total staff equal to 77.4 full
                time equivalents. DOE’s 2006 ENERGY STAR budget was approximately $6
                million.

Noteworthy Program Accomplishments
                EPA launched the ENERGY STAR Program to “realize significant reductions in
                emissions and energy consumption by permanently transforming markets for
                energy consuming products.” Since ENERGY STAR began, the program has
                grown steadily in terms of the energy efficient solutions it offers, the variety of
                partners, and the benefits it delivers. As of October 2006, the ENERGY STAR
                Program had 48 products qualified (see Appendix A for a detailed listing). The
                ENERGY STAR Program enables consumers to identify the products, practices,
                services, homes, and buildings that offer potential energy savings. ENERGY
                STAR has overcome informational, institutional, and practical obstacles to greater
                investment in energy efficient technologies and practices. EPA reported3 that in
                2005 ENERGY STAR prevented an estimated 34 million metric tons of
                greenhouse gas emissions, or the equivalent of annual emissions from 23 million
                vehicles. Furthermore, EPA reported more than an estimated $12 billion in
                savings were shown in utility bills of the American public.

                EPA has been successful in marketing the ENERGY STAR
                brand/label. In 2005, EPA reported that 60 percent of households
                nationwide recognize the ENERGY STAR label and 70 percent
                correctly interpret the meaning of the ENERGY STAR label.

                The ENERGY STAR Program has also grown internationally. EPA has engaged
                with government agencies in a number of countries to promote certain ENERGY
                STAR products. International partners include Australia, Canada, the European
                Union, Japan, New Zealand, and Taiwan.




3
 ENERGY STAR and Other Climate Protection Partnerships 2005 Annual Report, EPA 430-R-06-014, October
2006.




                                                   2

Scope and Methodology
                This review did not attempt to evaluate the overall effectiveness and impact of the
                ENERGY STAR program. This evaluation focused on the ENERGY STAR
                Product Labeling Program procedures designed to protect the logo and lead to
                benefits. The Product Labeling Program is responsible for overseeing an
                estimated two billion ENERGY STAR products sold since 1992.4 Figure 1.1
                summarizes the products sold.

                        Figure 1.1:     Types of ENERGY STAR Products by Sales Since 19925




                                  COMPUTERS               OTHER 6%
                                 AND MONITORS
                                    31%                              LIGHTING
                                                                         22%




                                         OFFICE                    CONSUMER
                                        EQUIPMENT                 ELECTRONICS
                                          18%                        23%




                        Source: ENERGY STAR and Other Climate Protection Partnerships 2005 Annual Report

                In contrast, other ENERGY STAR divisions are responsible for overseeing
                520,000 ENERGY STAR-qualified homes and 2,500 ENERGY STAR-labeled
                commercial buildings.6

                To evaluate how effectively EPA is managing the ENERGY STAR Product
                Labeling Program, we reviewed Agency guidance documents, and met with
                external partners and ENERGY STAR staff. To address the evaluation objectives
                we specifically analyzed:

                •	    The product specification setting and revision process, including reviewing
                      all applicable guidance documents.
                •	    The self-certification and verification processes, including reviewing all
                      applicable guidance documents.
                •	    EPA’s efforts to monitor how well the ENERGY STAR label was used.


4
  This total includes both EPA and DOE ENERGY STAR products sold. 

5
  The Office Equipment portion of products sold excludes computers and monitors. 

6
  ENERGY STAR and Other Climate Protection Partnerships 2005 Annual Report, EPA 430-R-06-014, October 

2006. 



                                                    3

                 For a more detailed discussion of our analysis, see Appendix B.

                 Furthermore, we examined management and internal controls as they related to
                 our objectives. In conducting our review, we applied criteria from the
                 Government Performance and Results Act and EPA program management
                 guidance.

                 We performed our evaluation in accordance with Government Auditing
                 Standards, issued by the Comptroller General of the United States. We
                 performed our field work from September 2006 through December 2006.

Prior Audit Coverage
                 According to the 1997 OIG report entitled, Risk Reduction Through Voluntary
                 Programs, 7 the ENERGY STAR program used good management practices and
                 developed ways to estimate environmental results. The report noted that while
                 the ENERGY STAR program had a good planning process, it could improve. For
                 example, according to the report, EPA’s practice of allowing manufacturers to
                 self-certify their products for ENERGY STAR compliance might not preserve the
                 integrity of the label. As a result, as consumer demand for ENERGY STAR
                 product increased, manufacturers would be pressured to provide these products.
                 One result would be increased potential for misusing the ENERGY STAR label.
                 The OIG made several recommendations to the ENERGY STAR program
                 including one specific to the scope of this evaluation: that the Principal Deputy
                 Assistant Administrator for Air and Radiation “consider the need for additional
                 efforts to maintain ENERGY STAR logo integrity, as the program applies the
                 logo to new products.”

                 The Principal Deputy Assistant Administrator for Air and Radiation agreed with
                 all the findings in the report and proposed corrective actions to address the
                 recommendations. The Agency agreed to evaluate whether spot-testing products
                 with the ENERGY STAR label was needed to maintain label integrity. Since
                 1997, the Agency began considering monitoring using the ENERGY STAR label.
                 In 2002, EPA started a compliance testing initiative. In conducting our
                 evaluation, we reviewed these efforts and report further on the importance of EPA
                 taking appropriate efforts to maintain the integrity of the ENERGY STAR label.




7
 EPA Office of Inspector General; Northern Audit Division, Chicago, Illinois. Report #7100130, Risk Reduction
Through Voluntary Programs, 1997, http://www.epa.gov/oigearth/reports/1997/voltable.htm .


                                                       4

                                Chapter 2
 EPA Processes to Establish and Protect the Integrity
            of the ENERGY STAR Label
          To ensure the efficiency and effectiveness of the ENERGY STAR program and
          the integrity of its label, EPA has established several processes, including product
          specification, product self-certification, product verification testing, and product
          label utilization monitoring. Specifically,

          •	    EPA identifies consumer products that have the potential for improvement
                and increased energy savings.
          •	    EPA develops individual product specifications with projected energy
                savings.
          •	    Manufacturers self-test their models and label them as ENERGY STAR if
                they meet established Agency guidelines.
          •	    EPA conducts compliance tests to ensure select products meet
                specifications.
          •	    EPA monitors ENERGY STAR label usage by advertisers and retailers.

Product Specification Process
          The Agency follows six key principles when establishing consumer product
          energy efficient specifications. They are as follows.

          1) Significant energy savings can be realized on a national basis.
          2) Product performance can be maintained or enhanced with increased energy
              efficiency.
          3)	 Purchasers will recover their investment in increased energy efficiency within
              a reasonable time.
          4) Energy efficiency can be achieved with several technology options, at least
              one of which is non-proprietary.
          5) Product energy consumption and performance can be measured and verified
              with testing.
          6) Labeling would effectively differentiate products and be visible for
              purchasers. Typically, the specification is set to recognize the top 25 percent
              of energy performing models on the market.

          The process of setting a product specification is illustrated in Figure 2.1. 

          Prior to making the decision to develop a new product specification, EPA gathers 

          market information to determine if a specification is warranted and viable. 





                                            5

                 Figure 2.1: Product Specification Development Cycle




                                Source: EPA ENERGY STAR Website

          According to the Agency, EPA sets an initial specification for a product category
          and then monitors the product in the marketplace to determine when it is
          appropriate to begin revising each specification. Annually, the ENERGY STAR
          staff meet to determine what specification revisions are needed. The decision to
          revise a specification depends on a number of factors. These include the
          percentage of ENERGY STAR products sold and available technologies for each
          ENERGY STAR product. Before EPA sets or revises a product specification, it
          requests input from manufacturers and stakeholders. This input is used to
          determine availability of new or advanced technologies, interest in producing
          products under a new revised specification level, and provide notice to the
          manufacturer of a pending revision. According to ENERGY STAR staff, this
          collaboration is an essential part of the process.

          We analyze this process in Chapter 3.

Product Self-Certification Process
          For manufacturers to participate in the ENERGY STAR program, they must enter
          into an ENERGY STAR Partnership Agreement. After entering into this
          agreement the manufacturers consent to:


                                           6

          •	    Test their products according to established specifications and guidelines.
          •	    Provide a list (or notification) to EPA of the qualified products, certifying
                that these products are ENERGY STAR qualified and meet the ENERGY
                STAR performance specifications.
          •	    Provide certification summary data as required per individual product
                specifications.
          •	    Provide EPA with annual shipping data for all ENERGY STAR qualified
                products.
          •	    Agree to put ENERGY STAR labels on qualified products only and to
                include ENERGY STAR literature.
          •	    Agree to follow all rules pertaining to the application and use of ENERGY
                STAR labels/logos.

          Once a company signs this agreement it is allowed to self-certify that its products
          meet the ENERGY STAR specifications, and it may immediately begin to utilize
          the EPA ENERGY STAR label. Self-certification involves the manufacturer
          testing its product models per ENERGY STAR specifications and reporting the
          results. The requirements for the amount and specifics of the reported data results
          vary by product and are according to specification requirements. For example, for
          some products a simple one page qualified product information form, with limited
          testing information, is the only required submittal. For other products, the amount
          of testing information required to be submitted is greater in both detail and
          volume.

          We analyze this process in Chapters 4.

Product Verification Testing Process
          In 2002, EPA started the ENERGY STAR Compliance Testing Initiative to support
          efforts to ensure that the program delivers on all of its energy-efficiency promises.
          According to the Agency, the objective of compliance testing is to test for the
          presence of issues within various product categories. If issues are identified,
          further action would be warranted. Key components of this testing initiative
          include the following:

          •	    Testing is completed by an independent lab(s) which obtain units directly
                from the marketplace for testing.
          •	    The goal of testing is to “identify potential compliance problems and set in
                motion a review process to ensure manufacturers take corrective measures
                as appropriate.”
          •	    EPA generally targets the most popular product models on the market for
                testing. These are identified based on unit sales, with consideration also
                given to a range of product features, prices, and manufacturers.




                                            7

          •	    Partners (manufacturers) whose units are selected for testing are notified
                prior to testing in writing. Also, they are notified of completed testing
                results.
          •	    For failed testing results, the partner has 30 days to submit additional
                information in support of the original certification.
          •	    If a partner fails to adequately respond with 30 days, the test data still do
                not meet ENERGY STAR requirements, or if the partner acknowledges that
                the product is mislabeled, only then will EPA remove the model in question
                from the ENERGY STAR qualified product list. EPA allows 6 months for
                the existing labeled ENERGY STAR products to be sold. At the end of the
                6 months, retailers and wholesalers are required to cover the ENERGY
                STAR label on any unqualified product they still wish to sell.

          We analyze this process in Chapter 4.

Product Label Utilization Monitoring Process
          According to the Agency, once the companies certify their product, they can
          begin marketing the product using the ENERGY STAR label. ENERGY STAR
          is a registered trademark of the EPA and thus is protected by Federal trademark
          law. In order to maintain the full protection of the trademark and other applicable
          laws, EPA works to monitor and stop unauthorized or confusing use of the
          ENERGY STAR label. To ensure the ENERGY STAR label is used
          appropriately in the marketplace, EPA undertakes the following activities to track
          the use of the ENERGY STAR name, label, and to help maintain the value of the
          ENERGY STAR program:

          •	    Monthly print advertisement and article monitoring,
          •	    Quarterly Internet monitoring, and
          •	    Retail store level assessments (RSL).

          According to Agency guidance, once a possible label infringement is identified,
          EPA is to take appropriate follow up action. The type of action taken depends on
          the nature of the infringement and the type of company involved. Examples of
          routine follow up actions include contacting the company by email, letter, or
          phone call; and in extremely rare cases terminating the partnership.

          We analyze this process in Chapter 5.




                                           8

                                 Chapter 3
    Transparency Needed in Specification Revision
                    Decisions
          We found that the criteria for initiating and revising specifications are unclear and
          are not documented. Agency documents state that specifications are initially
          designed to capture approximately 25 percent of a product market. However, we
          found the Agency’s guidance documents were not clear as to what factors would
          trigger a specification revision. Consumer confidence that ENERGY STAR
          products represent the most cost-effective technologies available may be
          undermined if this process is not transparent.

Product Specifications Set to Identify Top Performers
          According to Agency documents, the ENERGY STAR label is intended to
          identify the top performers in energy efficiency. The Agency’s 2001 Product
          Labeling Business Plan stated:

                 ENERGY STAR specifications are designed to capture
                 approximately 25% of a product market. When significantly more
                 of the market qualifies for the ENERGY STAR label, it ceases to
                 uphold its purpose of differentiating more efficient products.
                 Consequently, the integrity of the label is diminished and
                 credibility with consumers may decline. At this point, it is
                 necessary to “ratchet down” or design a more stringent
                 specification.

          EPA’s 25 percent goal results in an “exclusive” program, meaning most products
          available in the market place are not ENERGY STAR certified. According to
          EPA, by recognizing the top 25 percent, ENERGY STAR products are
          distinguished from other products, thereby adding to their intrinsic value.
          However, EPA still wanted to act as a catalyst and motivate the bottom 75 percent
          to increase energy performance. According to the Agency, the record of program
          participation over the last 12 years has demonstrated that industry has risen to the
          original challenge and improved the efficiency of their products. This results in
          the majority of product models on the market labeled as ENERGY STAR.
          However, if the majority of certain products are labeled as ENERGY STAR,
          hence becoming a more “inclusive program,” the integrity of the label is
          diminished and credibility with consumers may decline.

          Further, with a goal of 25 percent of the available products being ENERGY
          STAR certified, three-quarters of the products available for purchase are not
          resulting in maximum energy efficiencies that could contribute to EPA


                                            9

                greenhouse gas reduction goals. Therefore one option for achieving EPA’s
                ENERGY STAR goal is to reconsider the desirable level of exclusivity.
                Additionally, a trade-off exists between a program that seeks to maximize the
                purchase (or at least availability) of energy efficient products, versus one that
                seeks to continually advance the standards for energy efficiency and promotes the
                advancement of energy-saving technology.

Product Specifications Revision Criteria Not Clear
                As part of the ENERGY STAR specification setting process, EPA identifies the
                top performers in a given product category. Once an ENERGY STAR
                specification is set, manufacturers are then motivated by consumer demand for
                ENERGY STAR qualified products. According to Agency documents, once an
                ENERGY STAR specification is in place for some amount of time, the
                probability that market conditions and the available model mix have changed
                increases. Once the number of ENERGY STAR models reaches a high
                percentage of availability, the label begins to lose its intended purpose of
                identifying the top energy efficient products.

                According to Energy Star staff, the specification revision process begins with the
                ENERGY STAR staff meeting annually and deciding which specifications will be
                revised based on the guiding principles. However, we found the Agency does not
                document the results of this process, making it unclear how individual decisions
                were made. To ensure participants are fully aware of what the program delivers,
                all stakeholders must understand what triggers a specification revision. Also, the
                results of the annual process need to be clear and transparent.

                We reviewed EPA ENERGY STAR product specification revisions and market
                shares and found that specifications appear to be revised on a case-by-case basis.
                As discussed previously, according to EPA staff, a number of factors influence
                the decision to subsequently revise a specification. However, we found that the
                Agency’s current draft guidance document8 is not clear regarding what triggers a
                specification revision. According to the Agency, while a market share in excess
                of 50 percent may trigger a review of the product specification for possible
                revision, EPA may consider several other factors as well. It uses the six guiding
                principles (discussed in Chapter 2) as guidelines in determining when a
                specification revision is necessary. However, these principles are not clearly
                defined and the draft guidance document does not describe how the principles will
                be used in the revision.

                For example, one of the six principles is to ensure that ENERGY STAR labeling
                would effectively differentiate products. Typically, the guidance states that the
                specification is set to recognize the top 25 percent of energy performing models

8
  During our fieldwork, the Agency provided a draft document entitled Maintaining the Value of ENERGY STAR.
This document summarizes the components and processes in place to protect the integrity of the ENERGY STAR
label. This document has not been formally published or issued in final.


                                                     10

         on the market. However, we found that the Agency does not track the ratio of
         ENERGY STAR models to non-ENERGY STAR models available on the market,
         which would allow for determining this percentage. Furthermore, EPA considers
         market share defined as the number of ENERGY STAR products sold. While this
         interpretation of market share is not clearly identified as a guiding principle,
         tracking such information may be relevant as an indicator of success for the
         ENERGY STAR outreach component. However, in order to ensure the ENERGY
         STAR label identifies the top performers in a product category, EPA needs to also
         monitor information related to the percentage of ENERGY STAR products
         available.

Conclusion
         One of the key principles of the ENERGY STAR Product Labeling Program is
         that the ENERGY STAR label would enable the consumer to easily identify the
         most energy-efficient products. However, the timing and inconsistent criteria of
         past revisions means that the ENERGY STAR label may not deliver what is
         promised by the program, to market the most energy efficient products. In an
         effort to increase transparency in the revision process, EPA should ensure clear
         and consistent criteria are used and documented.

OIG Recommendation
         To ensure the integrity of the ENERGY STAR label for qualified EPA products,
         we recommend that the Principal Deputy Assistant Administrator for the Office of
         Air and Radiation:

         3-1. 	 Clarify the decision criteria and document the process for revising an
                ENERGY STAR specification, including identifying circumstances when
                a specification revision would not be revised, despite a high market share
                of qualified products.

Agency Comments and OIG Evaluation
         EPA agreed that clarification and documentation was needed for the specification
         revision process. EPA provided a document that describes the guiding principles
         for product specification revision. However, EPA’s actions do not meet the intent
         of the recommendation. The document simply restates the original principles
         (though deleting reference to market share as a guiding principle). Therefore, we
         consider the recommendation open and unresolved. For the OIG’s detailed
         analysis and EPA’s full response, see Appendices C and D.

         The OIG has incorporated technical corrections and clarifications requested by
         EPA as appropriate.




                                         11

                               Chapter 4
               Improving Product Verification

         Although the self-certification process is a fundamental component of the
         ENERGY STAR program, we found that EPA is not reasonably assured that this
         process is effective. The Agency in part relies on both Federal standards and
         third-party testing, but lacks any quality assurance or review of these results. The
         Agency’s verification testing also lacks a clear documented methodology
         governing products selected for verification tests and does not strive for
         statistically valid results. Consequently, product efficiency and energy savings
         are, for the most part, unverified by EPA review.

ENERGY STAR Verification Testing Conducted on a Minimal Basis
         We found that the initial verification test was not conducted until 2002, or 10
         years after the ENERGY STAR program began. From 1992 until 2002, EPA did
         not validate self-certifications because the ENERGY STAR staff considered that
         effort to be too costly and time-consuming. Beginning in 2002, EPA began
         limited verification testing on select products and models. Presently, EPA still
         relies overwhelmingly on the validity of the manufacturers’ self-certifications. To
         date, EPA has completed verification testing on nine ENERGY STAR products.
         Ten tests have been completed, with one product being tested twice. Even though
         computers were the initial product qualified as ENERGY STAR in 1992, they
         were not tested until 2006.

         Furthermore, of the 48 ENERGY STAR product categories managed by EPA,
         they exclude 14 categories from the scope of their verification testing. According
         to EPA, due to alternative verification mechanisms such as the Federal energy
         efficiency standards, third-party certification programs, and the Program for the
         Evaluation and Analysis of Residential Lighting (PEARL,) the Agency does not
         believe independent verification testing is needed for certain qualified products.
         See Table 4.1 for EPA’s determination of which product categories are excluded
         from the scope of its verification testing universe.




                                          12

       Table 4.1: Exclusions from EPA ENERGY STAR Testing Universe

      EPA Qualified ENERGY                Third-party     Federal     PEARL
      STAR Product                        Certification   Standards
      Air-Source Heat Pumps                    X              X
      Boilers                                  X              X
      Central Air Condition                    X              X
      Dehumidifiers                            X
      Exit Signs                                              X
      Furnaces                                X               X
      Geothermal Heat Pumps                   X
      Light Commercial Heat                   X
      Pumps
      Light Commercial HVAC                   X
      Residential Light Products                                       X
      Roof Products                           X
      Room Air Cleaners                       X
      Traffic Signals                                         X
      Ventilating Fans                        X
       Source: OIG Analysis of EPA data

EPA excludes 11 ENERGY STAR qualified products from the scope of its testing
universe because these products are eligible for testing under various third-party
certification programs. These programs typically are developed and maintained
by industry associations as a service to their members. Participation with these
programs is voluntary on the part of the manufacturer.

In addition, EPA excludes six ENERGY STAR qualified products from the
verification testing universe scope because they fall under product categories
subject to Federal energy efficiency standards. According to EPA, these
standards are subject to Federal oversight and noncompliance penalties.

Finally, EPA excludes residential lighting products from the verification testing
universe scope because they fall under the PEARL program. PEARL was created
in 1999 in response to complaints received about the performance of certain
ENERGY STAR qualified lighting products. PEARL purchases and tests lighting
products that are available to the consumer in the market place.

While EPA relies on these alternative verification mechanisms, it did not provide
us with documentation of receipt or review of test results from products excluded
due to these mechanisms. The information EPA provided does not indicate
whether EPA receives or monitors results of these activities. Therefore, EPA
lacks both assurance of the results of these other testing mechanisms and data
related to which manufacturers or actual qualified product models have
voluntarily participated. In addition to EPA’s lack of review of these test results,
all of the third-party certification programs are voluntary, thus manufacturer


                                   13

                 participation is not a requirement. Therefore, without an independent quality
                 assurance plan in place, EPA is narrowing the scope of its manufacturer data
                 verification testing without any assurance that it is justified in doing so. This
                 practice further threatens the integrity of and consumer confidence in the
                 ENERGY STAR label.

        Selection Method Inconsistently Applied
                 EPA’s verification testing lacks a clear documented methodology governing
                 products selected for verification tests and a clear sampling protocol. After
                 analyzing the ENERGY STAR selection methodology used for verification
                 testing, we found that EPA uses different criteria when selecting which product
                 models to test. According to Agency guidance and ENERGY STAR staff,
                 products are targeted and selected for testing based on the “most popular products
                 on the market.” However, upon analyzing the selection method for products
                 selected for testing, we found EPA has been inconsistent with its selection
                 method. (See Table 4.2 for details on products tested.)

                 Table 4.2: ENERGY STAR Verification Testing

                   Year              Product             Model Selection          Mfgs       Models       Units
                  Tested             Tested                 Method               Tested      Tested      Tested
                 2002        Televisions                Top Market sales        5            15         45
                 2002        DVDs                       Top Market sales        8            15         45
                 2003        Monitors                   Top Market sales        7            15         45
                 2003        Telephony9                 Top Market sales        6            20         50
                 2004        Scanners                   Top Market sales        7            15         45
                 2004        Multifunction devices &    EPA’s Product           11           11         11
                             Upgradeable digital        Development Team
                             copier                     input
                 2004        Printers & Faxes           Top Market sales        10           14         14
                 2005        Dehumidifiers              EPA’s Product           12           20         20
                                                        Development Team
                                                        input
                 2006        Computers                  EPA’s Product           10           16         16
                                                        Development Team
                                                        input
                 2006        Monitors                   Top Market sales        11           20         20
                 Totals                                                         87           161        311
                 Source: OIG Analysis of EPA data




9
  Analog and digital cordless telephones, multi-handset cordless telephones, answering machines, combination
cordless telephones/answering machines, multi-handset combination cordless telephones/answering machines, and
additional handsets using a variety of frequency ranges. The product round included the testing of three each of
cordless models sampled and one each of handset models.




                                                       14

          For example, we found that model selection for three of the nine product
          categories tested were chosen based on input from ENERGY STAR staff rather
          than using the stated criteria of top market sales used for the other seven products
          tested. We spoke with the ENERGY STAR staff about these inconsistencies and
          were told that sometimes they make selection decisions based on other factors.
          For example, if they were testing computers, more laptops might need to be tested
          than desktops due to an upcoming specification revision. The inconsistent or
          subjective application of the selection criteria decreases transparency. While we
          found no evidence of such, this practice may lend itself to the perception of bias
          and pre-selection. The lack of a documented process and criteria and
          inconsistency in implementation leaves the program vulnerable to perceptions of
          bias or pre-selection. Furthermore, it may devalue the confidence in the overall
          results which is important since testing is already done on such a limited basis.

          The ENERGY STAR verification testing does not attempt to produce statistically
          significant results in its testing program. Moreover, EPA can not conclude that
          its test results are representative of the performance of the product population it
          has sampled. In 5 of the 10 product categories subjected to verification testing to
          date, only one unit of each model was tested. (See Figure 4.2 for details on units
          and models tested.) When such a small number is tested within a sampled model,
          the results cannot account for inter-item variability. Manufacturers also agree to
          test as little as one unit to certify that their products meet ENERGY STAR
          qualifications. These testing practices can limit consumer confidence that
          expected energy savings will be realized.

Cost of ENERGY STAR Verification Testing
          The integrity of the ENERGY STAR label is vital to the success of the program.
          The ENERGY STAR staff said that testing is done to “protect the ENERGY
          STAR brand.” Additional testing may increase the integrity of the ENERGY
          STAR brand and reinforce consumer confidence in the program. These elements
          would allow for continued program success and further safeguard the public’s
          confidence in the validity of the program.

          According to ENERGY STAR staff, costs associated with verification testing
          include the cost of testing, product purchase and handling costs, and the cost
          associated with using a contractor. We reviewed the costs for two products,
          computers and computer monitors, which were selected by ENERGY STAR staff
          as representative examples. The cost to complete the two verification tests was
          approximately $24,000 each. This represented less than half of one percent of the
          total ENERGY STAR budget. Furthermore, in Fiscal Year 2006, the ENERGY
          STAR Product Labeling Program had an estimated $18.2 million of which
          $70,000 was allocated for verification testing. (See Figure 4.1.)




                                           15

                 Figure 4.1: ENERGY STAR Product Labeling Program Budget



                                 Energy Star Labeling
                                 Program (intramural)              Product and Labeling
                                       18.13%
                                                                  Program Administration
                                                                        18.68%
                         Verification Testing
                               0.38%


              Program Evaluation for                                               New Product
                    Labeling                                                    Assessments/Existing
                     4.01%                                                      Specifications Review
                                                                                      10.99%

               Technical Assistance to
                 Utilities/Program
                     Sponsors
                      12.64%



                                                           Outreach/ Outreach
                                                               Training
                                                                35.16%




          Source: OIG Analysis of EPA Budget Information

         Since the beginning of verification testing, EPA has averaged annually two sets of
         product verification tests. Now, according to EPA, 44,000 qualified product
         models exist within the qualified ENERGY STAR product categories. At the end
         of 2006, EPA had only conducted verification testing on 160 product models in 9
         product categories over 4 years.

Quality Assurance Plan Needs Improvement
         We found no official documented quality assurance plan was in place to ensure
         the integrity of the verification testing and the ENERGY STAR label. A Quality
         Assurance Plan describes the detailed quality assurance procedures and other
         technical activities that must be implemented to ensure that the results of work
         performed satisfies stated performance criteria. During our fieldwork, EPA
         provided a draft document entitled Maintaining the Value of ENERGY STAR.
         This document summarizes the components and processes in place to protect the
         integrity of the ENERGY STAR label, including the scope of verification testing.
         While this is a good first step, this draft document does not constitute a formal
         quality assurance plan. However, as of July 2007, this document had not been
         issued in final or formally published.




                                                  16

         ENERGY STAR staff assert that the quality and integrity of the ENERGY STAR
         program is further ensured through “self-policing.” They believe that in a
         competitive marketplace it is in each manufacturer’s interest to police or test its
         competitor’s products. The ENERGY STAR staff believe that ENERGY STAR
         products not meeting qualification standards for the program will be reported to
         EPA by rivals. ENERGY STAR program officials did not produce any evidence
         the asserted self-policing is occurring.

Conclusion
         EPA has limited the scope and amount of Agency-conducted verification testing
         even though it does not have reasonable assurance that the self-certification
         process is effective. The Agency relies on both Federal standards and third-party
         testing in limiting the scope of their testing, however it lacks any documented
         quality assurance of these results. EPA’s verification testing also lacks a clear
         documented methodology governing products selected for verification tests and a
         clear sampling protocol. Consequently, the validity of the manufacturer’s self-
         certification of products is, for the most part, unverified by EPA review. These
         practices weaken the integrity of the ENERGY STAR label and threaten the
         validity of self-certification. Furthermore, since the Agency has been successful
         in its marketing of the ENERGY STAR brand, we believe that some resources
         could now be more effectively used in quality assurance.

OIG Recommendations
         To ensure the integrity of the ENERGY STAR label for qualified EPA products,
         we recommend that the Principal Deputy Assistant Administrator for the Office of
         Air and Radiation:

         4-1. 	 Establish a formal Quality Assurance Program for product and verification
                testing to provide a reasonable assurance results are representative of the
                products available and the certification of others (self- and third party)
                may be relied upon.

         4-2. 	 Coordinate verification testing with product specification setting and
                revision process to ensure products are selected in a timely and relevant
                basis.

Agency Comments and OIG Evaluation
         EPA generally concurred with our recommendations. However, EPA’s response
         to both recommendations did not meet the intent of either recommendation. For
         Recommendation 4-1 it is insufficient for the Agency to simply formally
         document its existing program. The OIG found that the Agency lacked a formal
         program which is needed to provide reasonable assurance that the self-
         certification, verification testing, and third-party testing programs are effective.


                                          17

To complete this recommendation EPA needs a well-documented formal program
as prescribed in this chapter and discussed in additional detail in Appendix C.
For Recommendation 4-2, the OIG agrees with the Agency’s initial effort, but to
be responsive to the recommendation, further details are needed. EPA’s detailed
response and the OIG’s evaluation are in Appendices C and D. The OIG has
incorporated technical corrections and clarifications from EPA’s response in the
final report as appropriate.




                               18

                                 Chapter 5
          Tracking and Monitoring the Use of the
                  ENERGY STAR Label
          To help protect the integrity of the ENERGY STAR program, EPA reviews the
          use of the ENERGY STAR label by retailers. We found that EPA does not
          document the follow-up actions taken on label inconsistencies identified during
          these reviews. ENERGY STAR staff do not receive final reports detailing the
          review results, conclusions, and followup actions taken. Followup detailing any
          corrective actions taken is essential to provide assurance that label inconsistencies
          are corrected and do not become repetitive. Manufacturers may label and sell
          products as ENERGY STAR prior to submitting test results to the Agency for up
          to a year. The use of the label on products that do not meet ENERGY STAR
          requirements may decrease the value of the label and negatively impact the
          ENERGY STAR program.

Oversight for Label Use in Retail Stores

          According to EPA the Agency needs to ensure qualified products are presented
          properly in the retail setting in order to maintain the value of the ENERGY STAR
          program. To help protect the integrity of the ENERGY STAR program, EPA
          initiated semiannual quality assurance reviews to track and monitor using the
          ENERGY STAR label. EPA conducts these reviews at selected retailers within
          10 geographically diverse metropolitan areas. According to EPA, due to the cost
          associated with such studies, this assessment does not use a statistically
          significant sample nor is it comprehensive. Specifically, the goal of the Retail
          Store Level Assessment (RSL) is to evaluate how effective is marketing and
          communications for the ENERGY STAR Consumer Campaign and Product
          Labeling Program. The RSL seeks to address four goals:

          •	 to assess retailer knowledge and how salespeople use ENERGY STAR in the
             retail sales process;
          •	 to check the visibility and overall presence of the ENERGY STAR label;
          •	 to assess the availability and visibility of ENERGY STAR products; and,
          •	 to assess the accuracy of ENERGY STAR product labeling.

          The RSL involves monitoring the accuracy of the use of the ENERGY STAR
          label on a sample of select ENERGY STAR qualified products. Field personnel
          examine the product models with and without ENERGY STAR labels within
          select retail store settings. This information is used to determine whether
          products are labeled or mislabeled as ENERGY STAR. Mislabeled products
          found during the RSL are identified as label inconsistencies.


                                           19

          While the assessment serves multiple purposes, a key aspect includes reviewing
          ENERGY STAR product label usage for accuracy. EPA can use this tool to
          identify strengths and weaknesses of the Agency’s processes. However, we found
          that the emphasis of the RSL appears to be on assessing the impact of the
          Agency’s marketing and outreach efforts. Furthermore, it is important in assuring
          the accuracy of label use and the overall integrity of the ENERGY STAR label.

Reports Not Finalized and Results Not Documented
          Since 2001, EPA initiated eight rounds of RSLs. These reviews were conducted
          in 11 unique retailers, covering 16 ENERGY STAR product categories. The
          assessments in part examined how accurately the ENERGY STAR label was
          used. However, we found that EPA has not consistently required the contractor to
          provide final reports documenting the RSL results. Specifically, of the seven
          assessments completed by the end of our fieldwork, only two reports were
          finalized. The remaining six reports are in draft and present preliminary results of
          the review. We were advised by ENERGY STAR staff that the results would
          need to be reviewed and updated prior to issuing a final report.

          The draft reports lacked an Executive Summary, Background/Methodology
          sections, and in many cases, Conclusions. EPA officials said they did not require
          that the draft reports be updated to final in many instances due to limited
          resources. Furthermore, EPA explained it was neither a good investment nor
          necessary to finalize the fieldwork draft report to reflect the final outcomes of the
          reconciliations and followup process.

          We also found these reports did not document the needed followup actions taken
          when the apparent inappropriate use of the ENERGY STAR label was found.
          According to guidance documents, improperly labeled ENERGY STAR products
          or label inconsistencies are referred to the appropriate program mangers for
          followup action. When we requested documentation of followup actions taken,
          EPA staff could not provide any and were unaware as to whether the contractor
          followed up on inconsistencies found during the RSLs. According to ENERGY
          STAR staff, a second contractor conducted follow up on label inconsistencies.
          However, the Agency did not have any documentation to support the followup
          actions taken by the contractor on behalf of the Agency.

          Furthermore, we found that EPA lacks specific guidance for the contractor
          regarding what followup actions should be taken for various mislabeling
          circumstances. After we had discussions with ENERGY STAR staff, they
          acknowledged the lack of guidance in this area and drafted a flowchart as a
          guidance document. This draft chart is a good starting point and could be used in
          developing potential guidance for the contractor and/or EPA staff in addressing
          ENERGY STAR label inconsistencies.




                                           20

Results Not Monitored or Tracked
          We analyzed all completed RSL rounds and found inconsistencies in the
          monitoring and tracking label inconsistencies. For example, the RSL conducted
          in April 2003 found that 43 percent of nonqualified television models appear to
          either always or sometimes be labeled as ENERGY STAR. In the assessment
          conducted in October 2003, the percentage of nonqualified television models
          mislabeled as ENERGY STAR grew to 44 percent. The primary explanations
          given for products mislabeled as ENERGY STAR was that they previously
          qualified but had been removed from the current ENERGY STAR qualified list
          due to changes in standards. However, of the inconsistencies found, 18 percent of
          the televisions never met the ENERGY STAR standards and were caused by the
          manufacturer mislabeling the products.

          At our request, the contractor provided updated tables for the RSL conducted in
          May 2006. The final results of this assessment indicated that the percentage of
          mislabeling had decreased for televisions. The percentage of nonqualified
          television models mislabeled dropped to 21 percent. Of the models reviewed, 48
          models were always or sometimes mislabeled as ENERGY STAR. We requested
          all information related to followup actions taken on the inconsistencies identified
          during this RSL. According to the ENERGY STAR staff, they only have the
          contractor follow up on products that are considered always labeled incorrectly.
          We were provided a narrative that described the nature of the 21 products that
          were considered always mislabeled as ENERGY STAR. (See Table 5.1.) The
          remaining 27 products were sometimes labeled as ENERGY STAR and were
          considered to be label errors by the retailer or by regional program labeling
          practices.
          Table 5.1: Explanation for Televisions Found to Always Be Mislabeled

                  Television Models Always Labeled Incorrectly as ENERGY STAR
                  Are currently being reviewed                         2
                  Meet ENERGY STAR standards but had not               17
                  completed the qualification process
                  Never qualified                                      2
              Source: OIG Analysis of RSL data

          Furthermore, we found EPA does not track results and conduct analysis to
          identify program strengths and weaknesses. For example, the Agency does not
          identify and track repeat offenders in successive assessments. Based on
          assessments conducted to date, some product categories such as lighting fixtures
          seem to consistently have a high percentage of mislabeling problems. In contrast
          some product models that are certified as ENERGY STAR are found to not be
          consistently labeled as ENERGY STAR. Since the retail store is generally the
          purchase point for the consumer, EPA should monitor and track such results to
          ensure that the consumer is making an informed decision. EPA can use results
          from the assessment to monitor the impact of management decisions, identify
          weaknesses and strengths in their processes, and ultimately ensure the integrity of


                                             21

         the label. However, we found the emphasis of the oversight is skewed to the
         actions of ENERGY STAR partners, not the accuracy of information available to
         individual retail consumers.

Products Marketed as ENERGY STAR Prior to EPA Notification

         According to EPA, even though the RSL may find instances where a product was
         mislabeled as ENERGY STAR, EPA may determine that subsequent to the
         assessment the product does qualify for ENERGY STAR. The Agency explained
         that this situation is caused by the manufacturer labeling the products prior to
         officially reporting the products to EPA as ENERGY STAR qualified. According
         to EPA, 17 of the 21 television models found to be always labeled incorrectly in
         the May 2006 RSL were caused by the manufacturers labeling the products prior
         to completing the qualification process. According to ENERGY STAR staff,
         once the manufacturer tests the product and it qualifies under the ENERGY
         STAR standards the manufacturer can begin labeling the product as ENERGY
         STAR. Therefore labeling can occur prior to EPA ever receiving any notification
         that this particular product model qualifies under the self-certification guidelines
         of the ENERGY STAR program.

         However, according to the ENERGY STAR product certification process, as
         discussed in Chapter 2, the manufacturer consents to testing its products
         according to established specifications and guidelines. The manufacturer then
         must notify EPA of the qualified products, certifying that these products are
         ENERGY STAR qualified and meet the ENERGY STAR performance
         specifications. Further the manufacturer is required to provide certification
         summary data per individual product specification requirements. Therefore the
         process of manufacturer self-certification of its products includes notifying EPA
         and submitting appropriate summary data to the Agency.

         In contrast, the Agency interprets this criterion to mean that the manufacturer can
         begin using the ENERGY STAR label prior to sending in certification and
         supporting documentation. ENERGY STAR staff said it would be too time
         consuming and labor intensive to review the summary data provided by the
         manufacturer prior to granting it access to the label. Rather EPA requires the
         manufacturer to provide annual (or in few cases semi-annual) updates identifying
         which new product models should be added to the ENERGY STAR product
         qualification list. ENERGY STAR staff said that as they move to a more
         automated system the information may be provided to EPA on a more timely
         basis.

Conclusion
         While monitoring the accuracy of the use of the ENERGY STAR label is a
         component of the Retail Store Level Assessment, we found little oversight over
         the use of the ENERGY STAR label in retail stores, which is generally the


                                          22

         purchase point for the consumer. ENERGY STAR staff could not provide
         documentation related to followup actions taken, final results for all retail store
         assessments, or status of label inconsistencies. Additionally, when planning for
         upcoming assessments ENERGY STAR staff stated that no consideration is given
         to past “bad performers.” Such consideration might allow EPA to determine if
         certain models of products reviewed are consistently being mislabeled. Also, the
         results of these assessments can show both strengths and weaknesses of the
         ENERGY STAR program and allow the program to focus on and budget for
         particular areas of concern.

         Furthermore, we found that EPA lacks specific guidance for the contractor
         regarding what follow up actions should be taken for various circumstances.
         After we had discussions with ENERGY STAR staff, they acknowledged the lack
         of guidance in this area and drafted a chart. This draft chart could be used to
         develop potential guidance for the contractor or EPA staff in addressing label
         inconsistencies.

OIG Recommendations

         To ensure the integrity of the ENERGY STAR label for qualified EPA products,
         we recommend that the Principal Deputy Assistant Administrator for the Office of
         Air and Radiation:

         5-1. 	 Establish standards to ensure label use inconsistencies found during the
                retail store level assessments are systematically recorded, appropriate
                actions taken, and inconsistencies are tracked until resolved or otherwise
                complete.

         5-2. 	 Establish standard operating procedures for contract oversight to assure
                that all contractually required work is complete and meets the contract
                requirements.

Agency Comments and OIG Evaluation
         EPA generally concurred with our recommendations. However, EPA’s response
         to both recommendations is not sufficient to complete the intent of the
         recommendations. In regard to recommendation 5-1, the Agency needs to
         establish standards to ensure documentation of resolutions to identified labeling
         inconsistencies. Furthermore all followup actions should be documented and
         tracked systematically. In regard to recommendation 5-2, the Agency has revised
         the format of retail store level assessment. However, as stated in the
         recommendation, the Agency needs to establish a standard operating procedure to
         ensure proper oversight of all contractually required work. EPA’s detailed
         response and the OIG’s evaluation are in Appendices C and D. The OIG has
         incorporated technical corrections and clarifications from EPA’s response into the
         final report as appropriate.


                                         23

                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                   BENEFITS (in $000s) 2

                                                                                                                    Planned
Rec.       Page                                                                                                    Completion        Claimed        Agreed To
No.         No.                          Subject                          Status1          Action Official           Date 3          Amount          Amount

3-1         11    Clarify the decision criteria and document the             O            Principal Deputy
                  process for revising an ENERGY STAR                                 Assistant Administrator,
                  specification, including identifying circumstances                 Office of Air and Radiation
                  when a specification revision would not be revised,
                  despite a high market share of qualified products.

4-1         17    Establish a formal Quality Assurance Plan for              O            Principal Deputy
                  product and verification testing to provide a                       Assistant Administrator,
                  reasonable assurance results represent the                         Office of Air and Radiation
                  products available and the certification of others
                  may be relied upon.

4-2         17    Coordinate verification testing with product               O            Principal Deputy
                  specification setting and revision process to ensure                Assistant Administrator,
                  products are selected in a timely and relevant                     Office of Air and Radiation
                  basis.

5-1         23    Establish standards to record label use                    O            Principal Deputy
                  inconsistencies found during the retail store level                 Assistant Administrator,
                  assessments are systematically recorded,                           Office of Air and Radiation
                  appropriate actions are taken, and infraction are
                  tracked until resolved or otherwise completed.

5-2         23    Establish standard operating procedures for                O            Principal Deputy
                  contract oversight to assure that all contractually                 Assistant Administrator,
                  required work is complete and meets the contract                   Office of Air and Radiation
                  requirements.




      1	    O = recommendation is open with agreed-to corrective actions pending;
            C = recommendation is closed with all agreed-to actions completed;
            U = recommendation is undecided with resolution efforts in progress

      2	    Identification of potential monetary benefits was not an objective of this evaluation.

      3	    In accordance with EPA Manual 2750, the Agency is required to provide a written response to this report within 90 calendar days that will include a
            corrective actions plan for agreed upon actions, including milestone dates.




                                                                                 24

                                                                                           Appendix A

            ENERGY STAR Qualified Product Categories
    EPA ENERGY STAR PRODUCTS (48)
    Air Source Heat Pumps                                   Monitors 

    Battery Charging Systems                                Outdoor Residential Light Fixtures 

    Boilers                                                 Powered Speakers 

    Cassette Decks                                          Printers 

    CD Players                                              Programmable Thermostats 

    Ceiling Fans                                            Rack Home Audio Systems 

    Central Air Conditioners                                Roof Products 

    Clock Radios                                            Room Air Cleaners 

    Combo Phone Units                                       Scanners 

    Commercial Freezers                                     Stereo Amplifiers 

    Commercial Fryers                                       Stereo Receivers 

    Commercial Hot Food Holding Cabinets                    Televisions 

    Commercial Refrigerators                                Traffic Signs1

    Commercial Steam Cookers                                Transformers 2

    Computers                                               VCRs 

    Copiers                                                 Vending Machines 

    Cordless Phones                                         Ventilating Fans 

    Dehumidifiers                                           Water Coolers 

    DVD Products 

    Exit Signs                                              DOE ENERGY STAR PRODUCTS (9)

    External Power Adaptors                                 Clothes Washers 

    Fax Machines                                            Compact Fluorescent Light Bulbs 

    Furnaces                                                Dishwashers 

    Geothermal Heat Pumps                                   Doors 

    Indoor Residential Light Fixtures                       Freezers 

    Insulation & Air Sealing                                Refrigerators 

    Light Commercial Air Conditioners                       Room Air Conditioners 

    Light Commercial Heat Pumps                             Skylights 

    Mailing Machines                                        Windows 

    Mini Home Audio Systems 


                     TOTAL ENERGY STAR PRODUCTS AS OF OCTOBER 2006: 57

                   Source: Internal EPA ENERGY STAR data


1
    EPA suspended the ENERGY STAR Traffic Signals specification effective May 2007.
2
    EPA suspended the ENERGY STAR Transformers specification effective May 2007.


                                                      25

                                                                                  Appendix B

              Detailed Scope and Methodology
To describe how effectively EPA managed the ENERGY STAR Product Labeling Program, we
reviewed internal ENERGY STAR policy and guidance documents and recent ENERGY STAR
reports, and held detailed discussions with both internal and external stakeholders. We reviewed
EPA’s 2003-2008 Strategic Plan: Direction for the Future, EPA’s Fiscal Year 2005 Annual
Performance Plan, and budget allocations for the ENERGY STAR program. We also reviewed
relevant reports by the U. S. Government Accountability Office, Lawrence Berkley National
Laboratory, and the Consortium for Energy Efficiency.

To determine the extent EPA ensures that ENERGY STAR product specifications are sufficient
and revised timely, we analyzed the product specification setting and revision processes. We
reviewed applicable guidance documents such as the 2001 Product Labeling Business Plan and
The ENERGY STAR Label: A Summary of Product Labeling Objectives and Guiding Principles
to determine EPA’s procedures. We also conducted a detailed analysis of relevant data for all
product revisions made to date or scheduled for the immediate future, and compiled a detailed
schedule documenting the history of all product specifications and revisions. Prior to and
subsequent to completing our analysis and schedule, we held detailed discussions with
ENERGY STAR staff.

To determine the extent EPA verifies that certified products adhere to the ENERGY STAR
specifications, we analyzed both the self-certification and verification processes. We reviewed
applicable guidance or compliance documents such as ENERGY STAR Partnership Agreement,
The ENERGY STAR Label: A Summary of Product Labeling Objectives and Guiding Principles,
and ENERGY STAR Compliance Testing Initiative. Our review included a detailed review of all
certification requirements and guidance documents on verification testing. We further analyzed
EPA’s efforts to date with verification testing, including analyzing applicable costing data to
determine average estimated cost of a completed test. We analyzed whether EPA’s use of their
selection methodology was consistent with available guidance. Finally, we analyzed the amount
of completed verification tests versus overall budget expenditures to demonstrate the relative
commitment of resources that have been allocated to this quality assurance process.

To determine the extent EPA ensures the proper use of the ENERGY STAR label/logo, we
analyzed efforts to monitor the proper use of the ENERGY STAR label. We reviewed all
applicable guidance and criteria documents such as the ENERGY STAR Program Identity
Guidelines, EPA’s Product Labeling Business Plan and The ENERGY STAR Label: A Summary
of Product Labeling Objectives and Guiding Principles.

We reviewed EPA’s efforts in monitoring newspapers, magazines, and trade journals for use of
the ENERGY STAR label. However, we did not validate these efforts. We performed a detailed
analysis of the Retail Level Store Assessments (RSL), including reviewing the results of the
assessments and applicable followup actions. To determine contractor requirements and



                                               26

deliverables, we reviewed the applicable statement of work for Contract EP-WO-6001. Finally,
we reviewed the contractor reports submitted to EPA of completed RSL rounds to determine the
rate and nature of inconsistencies and followup actions taken.




                                             27

                                                                                                    Appendix C

        OIG’s Detailed Analysis of Agency Response
The OIG’s evaluation of the Agency’s Comments is documented within the table below, by key
bulleted point and recommendation number. For full text of the Agency’s comments see
Appendix D.

#    Section/Page              OAR Comments                                        OIG Response

1   Chapter 3, pages   EPA has clearly articulated               The OIG did not conclude that the original guiding
    10-11              principles, formally published in         principles lacked documentation. The OIG was
                       2003 and available on our web site,       aware of the guiding principles as evidenced by the
                       for ENERGY STAR specifications.           fact they were cited within the draft report.
                       These principles are also employed        However, we found that the original document
                       as part of revising ENERGY STAR           defining the guiding principles did not state that they
                       specifications. The principles are        were to be used as the principles for specification
                       well-documented, distributed broadly      revision. We were informed by Agency staff during
                       with industry and used consistently       our evaluation that the same principles were used for
                       in the specification setting and          both the specification setting and revision processes.
                       revision processes.
                                                                 In addition as discussed in more detail in OIG’s
                       See Appendix D, Page 40, first bullet     response #2, the Agency has not documented the
                                                                 actual decision making process. Therefore there is
                                                                 no evidence that the principles have been used
                                                                 consistently.

2   Recommendation     EPA uses the same principles for          The OIG does not consider the Agency’s response
    3-1, page 11       initial specification of a product and    adequately addresses the intent of the
                       for revising an ENERGY STAR               recommendation because it lacks details as to how
                       specification. However, we believe        the revision process is to be carried out annually.
                       it is a useful and valuable addition to   While EPA “revised” the guidance to include
                       program documentation to explicitly       language for specification revision, the document did
                       describe the conditions under which       not clearly address how the program staff make
                       the EPA undertakes a revision of an       decisions. Rather, the revised document is a
                       existing ENERGY STAR                      restatement of the previously existing six principles
                       specification and, in particular, to      referred to in Chapter 2, with one change: EPA
                       explain why high market share in and      deleted the statement, “Typically, the specification is
                       of itself is not necessarily sufficient   set to recognize the top 25 percent of energy
                       to warrant a specification revision.      performing models on the market.”

                       Status: Complete See attached             In addition, the OIG finds that the guiding principles,
                       “Factors Considered: Initiating an        whether they are used for initial specification setting
                       ENERGY STAR Specification                 or revision, do not constitute criteria to determine
                       Revision,” completed June 26, 2007        when specifications need revision. These principles
                                                                 do not provide direction as to how they should be
                       See Appendix D, Pages 37-38               interpreted or how they will be applied. For
                                                                 example, EPA has not specified the conditions that
                                                                 trigger the revision process or what constitutes the
                                                                 decision making process.




                                                       28

                                                               In addition, while the Agency states that the guiding
                                                               principles are factors to be considered in the
                                                               specification revision process, it does not explain
                                                               how these principles are to be applied to the decision
                                                               making process. For example, it does not explain
                                                               what constitutes “significant energy savings” and
                                                               how they can be realized on a national basis. The
                                                               document also states that:

                                                                  Each time an ENERGY STAR efficiency level is
                                                                  established, whether for the first time or as part
                                                                  of a revision, these principles are balanced to
                                                                  ensure that the specified level will deliver
                                                                  significant aggregate energy savings while
                                                                  differentiating products that are cost-effective to
                                                                  the consumer and do not compromise
                                                                  functionality or performance.

                                                               However, the document does not explain how the
                                                               principles are “balanced” nor if there is a system in
                                                               place that prioritizes and/or weights some principles
                                                               over others in the decision making process.

                                                               Furthermore, the OIG believes that the initial
                                                               specification setting and revision processes are two
                                                               separate processes with different intended purposes,
                                                               thus EPA should have specific guidance and criteria
                                                               relative to each process. Finally, while the Agency
                                                               states they make decisions annually on a case by case
                                                               basis, we see no evidence in their response of
                                                               agreement to maintain documentation of the results
                                                               of their annual decision making process. Until this is
                                                               done, there is no evidence to support how EPA
                                                               makes any of the specification revision decisions.

                                                               Therefore, it remains the OIG’s position that the
                                                               Agency’s response is non responsive and EPA still
                                                               lacks a formal methodology for revising
                                                               specifications.
3   Draft            We do not find this recommendation        One of the guiding principles previously had a
    Recommendation   to be a useful addition to evaluating     component that related to the percentage of Energy
    3-2              and improving the operation of the        Star products available on the market as compared to
                     ENERGY STAR program. Instead,             non-ENERGY STAR products. During our
                     we believe that the investment we         fieldwork we were informed that while this was
                     have made in routinely tracking           listed as a part of the guiding principle, they did not
                     market share as a percent of product      track data regarding what percentage of available
                     sales more closely tracks with            products were ENERGY STAR.
                     program results. This provides
                     information that directly translates to   However as indicated in their response to
                     energy and greenhouse gas savings         recommendation 3-1, the Agency has deleted that
                     and plays an important role in our        reference to market share from the guiding principles
                     program evaluation process.               that govern specification revision.
                     Furthermore, EPA already collects
                     information on the percent of models      Based on the new specification revision guiding
                     in the specification setting process      principles the OIG agrees to remove this
                     which is when it is most                  recommendation.
                     programmatically useful.


                                                     29

                       Status: Suggest removing this
                       recommendation given that ENERGY
                       STAR qualified models are already
                       tracked as part of the specification
                       revision process.

                       See Appendix D, Page 38
4   Chapter 4, pages   Self-certification is a broadly used     The OIG did not evaluate the merits of the self-
    12-14 and 17       practice in the United States and        certification process and thereby did not conclude
                       other countries. It is generally         that the self-certification process was unacceptable
                       viewed as effective and has been         as the Agency’s response implies. Rather we
                       employed for decades across many         evaluated the effectiveness of the management
                       types of programs that touch U.S.        controls in place over the process in ensuring the
                       consumers. Self-certification            integrity of the ENERGY STAR label. The OIG
                       programs are viewed as particularly      also never “faulted” EPA for using the practice of
                       appropriate in countries such as the     self-certification. However, the OIG found that the
                       United States that have competitive      Agency has not done enough to ensure that the self-
                       market places that allow                 certification process is effective. We found that the
                       manufacturers to question their          amount of testing and/or controls in place by EPA is
                       competitors and that also have robust    neither effective to act as a deterrent or to identify
                       consumer protection activities.          system issues. The OIG’s position and conclusions
                       Importantly, there is no evidence that   are unchanged on this matter and are explained in
                       these self-certification programs do     detail within Chapter 4 under the subsection entitled,
                       not work. The ENERGY STAR                “ENERGY STAR Verification Testing Conducted
                       program was designed using self-         on a Minimal Basis.”
                       certification in the early 1990’s.
                       Over the last fifteen years there has    The OIG reemphasizes the fact that EPA is
                       been no new information to suggest       conducting verification testing on a limited basis and
                       that self-certification is not a         has no reasonable assurance that the self-certification
                       reasonable approach in the U.S. Two      process is effective. Limited testing is not cost
                       other examples of well-known             efficient if it does not provide enough confidence
                       programs that rely upon self-            that the system is operating effectively.
                       certification include the Energy
                       Guide label and the food nutrition       The OIG did not review either the EnergyGuide or
                       label. A review of these two             the Food Nutrition Labels, as they were not within
                       programs relative to the ENERGY          the scope of the review on EPA’s ENERGY STAR
                       STAR program would show that             program. Therefore, we take no position as to the
                       EPA has instituted a comprehensive       effectiveness or controls in place of these labels.
                       program in to assure the proper use
                       of the ENERGY STAR label that
                       goes well beyond those of other
                       programs. This includes product
                       verification testing, as well as the
                       development of product-specific
                       post-manufacturing testing programs
                       in product areas requiring additional
                       attention. EPA should be recognized
                       for instituting these additional
                       practices as opposed to faulted for
                       relying upon the broadly used and
                       accepted practice of self-
                       certification.




                                                      30

                         EnergyGuide Label
                         Since 1980, manufacturers of
                         appliances have been required to
                         label their products with energy
                         use information in the form of
                         the Federal Trade Commission’s
                         yellow Energy Guide label.
                         Similar to the ENERGY STAR
                         program, manufacturers agree to
                         test their products, submit data
                         and attach a label. No prior
                         approval is needed. This label is
                         used on thousands of products
                         that consumers purchase each
                         year.

                          Food Nutrition Label
                          Since 1990, producers of most
                          processed food products have
                          been required to label those
                          items with nutrition
                          information. Producers are
                          required to measure required
                          nutrients and report them on
                          food packaging. The FDA does
                          not require prior approval to
                          verify manufacturer labels nor
                          does it track labeling by food
                          producers. These labels are
                          used to guide billions of food-
                          related purchasing decisions
                          each year.

                     See Appendix D, Pages 40-41,
                     second bullet
5   Recommendation   EPA has a comprehensive program            The OIG accepts the time frame established for
    4-1, page 17     in place for assuring the proper use       completion of the formal Quality Assurance Plan.
                     of the ENERGY STAR label,                  However, for the OIG to accept this action as
                     including that the products                responsive to the recommendation, the Agency
                     displaying the label meet the              cannot simply document their existing program. The
                     performance requirements.                  Agency’s quality assurance plan should at a
                     Verification testing is one of many        minimum describe in detail the necessary quality
                     checks on the certification process        assurance, procedures, and other technical activities
                     that EPA has established to cost-          that must be implemented to ensure that the results of
                     effectively protect the integrity of the   work performed satisfy stated performance criteria.
                     ENERGY STAR program. Other                 Simply documenting the processes currently in place
                     important elements include formal          will not address the intent of the recommendation.
                     partnership agreements with
                     manufacturers and an initial
                     certification process that uses            The Agency claims to have a comprehensive
                     standardized, formal test procedures       program to ensure proper use of the label. However,
                     and the review of submitted data.          we found the program lacks key components such as
                     EPA also leverages a number of             a quality assurance plan and adequate oversight and
                     third-party test programs, where they      testing. The OIG has no objection to the reliance on
                     exist. These include programs              self- certifications, verification testing or third-party
                     established by trade associations and      testing. However, as discussed within Chapter 4 of


                                                      31

                       relied upon by the federal                this report, we found EPA’s current program to be
                       government to ensure compliance           insufficient to provide reasonable assurance that the
                       with federal efficiency standards and     self-certification program, verification testing and
                       other federal programs. EPA will          third-party testing is effective.
                       establish formal documentation – a
                       Quality Assurance Program – on the        The OIG emphasizes the fact that EPA is conducting
                       various elements of its compliance        verification testing on a limited basis and excludes
                       monitoring system for ENERGY              eleven qualified products from testing because these
                       STAR qualified products, how these        products are eligible for testing under various third-
                       elements fit together, and on how this    party programs. The OIG disagrees with the
                       program provides reasonable               Agency’s position that the use of third-party testing
                       assurance that the results are            services as a check of the certification’s accuracy is
                       representative of the products            sufficient, since EPA has no process for reviewing
                       available                                 and accepting third-party process. EPA needs to
                                                                 validate both what third-party testing is occurring
                       Status: Initiated. Expected to be         and their procedures in order to exclude products
                       Complete in 9 months.                     from consideration from the Agency’s verification
                                                                 testing. The OIG restates its position that EPA lacks
                       See Appendix D, Page 38                   both assurance of this testing mechanism and data
                                                                 related to which manufacturers or actual qualified
                                                                 product models have voluntarily participated. In
                                                                 order for the Agency to have a proper Quality
                                                                 Assurance Plan in place and to continue to exclude
                                                                 these products from testing, it should include data
                                                                 and measures to validate these results.

                                                                 Finally, the OIG does not agree that the formal
                                                                 partnership agreements serve as a check on the
                                                                 certification process given that the review of the
                                                                 submitted data by the Agency’s own omission is
                                                                 very limited. Furthermore, self-certification data
                                                                 submittal is sometimes not received by EPA for up to
                                                                 one year after the manufacturer has been labeling
                                                                 their products as ENERGY STAR. This practice
                                                                 leaves the Agency more vulnerable and demonstrates
                                                                 the lack of oversight and reasonable assurance that
                                                                 the self-certification process is effective.
6   Chapter 4, pages   According to the Agency the               As reported in the draft report Table 4.2, EPA has
    14-15              statement, the Agency’s verification      not adopted a consistent approach to selecting
                       testing lacks a clear documented          products for verification testing. For example, when
                       methodology governing products            televisions were tested in 2002, fifteen models from
                       selected for verification tests and       five manufacturers were selected. In all, 45 units
                       does not test for statistically valid     were tested which averages to three televisions per
                       results needs further context. EPA        model. In contrast, in 2003 EPA tested an average of
                       has a clear methodology for its           2.5 telephony units per model (i.e., 50 units selected
                       verification testing program which it     among 20 models from six manufacturers), while in
                       has used for more than five years and     2006 EPA tested an average of only one monitor unit
                       which it has further documented in a      (i.e., 20 units selected among 20 models from 11
                       technical addendum to the work            manufacturers.)
                       order for this testing. Further, this     The inconsistent number of units per
                       testing is designed to identify           model/manufacturer and the subjective application of
                       systemic issues and to act as a           the selection criteria (i.e., market sales vs. Product
                       deterrent. If initial issues are found,   Development Team input) decreases transparency.
                       EPA places the burden on the              Furthermore, the small number of units tested per
                       manufacturer to do additional             model/manufacturer provides little confidence in the
                       product testing. EPA also undertakes      testing results.


                                                       32

                       additional work to address any
                       systemic issues such as establishing       The OIG disagrees with EPA’s statement, “Further,
                       broader testing programs, where            this testing is designed to identify systemic issues
                       warranted. This approach is                and to act as a deterrent.” As discussed within this
                       substantially more cost-effective than     section in Chapter 4, presently EPA is not testing
                       pursuing statistically valid testing       enough to project any systematic issues or to
                       across the 40,000 or more products         demonstrate that their limited testing acts as a
                       currently represented in the               deterrent. Despite the fact that the program has
                       ENERGY STAR program.                       grown, EPA did not begin to conduct verification
                                                                  tests until ten years after its creation. Furthermore,
                       See Appendix D, Page 41, first full        once they began it was and has continued to be done
                       bullet                                     on a very limited basis. The costs incurred for the
                                                                  verification testing represented less than half of one
                                                                  percent of the total ENERGY STAR budget.

                                                                  Finally, in their response EPA overstated the amount
                                                                  of products available in the overall universe for
                                                                  consideration in its verification testing. In respect to
                                                                  the testing program, the Agency cited a universe of
                                                                  “40,000 or more” products, however, as reported in
                                                                  chapter 4, 14 of the 48 Energy Star product
                                                                  categories are excluded from the Agency’s
                                                                  verification testing program.
7   Recommendation     EPA currently selects product              The OIG agrees with the Agency’s effort to
    4-2, page 17       categories that are to undergo             coordinate verification testing and the specification
                       verification testing in a given year       revision processes. This is a start toward the intent
                       based on a number of factors               of the recommendation, but is insufficient to
                       including whether or not the               complete it. One example does not demonstrate how
                       specification has been recently            this process is working. The OIG reiterates the need
                       revised. EPA has included this factor      for more specificity regarding implementation of this
                       in written documentation for product       recommendation to be included in the corrective
                       selection for verification testing; this   action plan.
                       was completed in May 2007. As an
                       example, EPA is including imaging
                       products in the next round of
                       verification testing. The ENERGY
                       STAR specification for this product
                       category was effective as of April
                       2007 and this testing will provide
                       important information on the
                       transition to this new specification.

                       Status: Complete

                       See Appendix D, Pages 38-39

8   Chapter 5, pages   According the Agency the statement,        The Retail Store Level assessment (RSL) is a vital
    21-23              “little oversight of the ENERGY            part of monitoring the usage of the ENERGY STAR
                       STAR label in retail stores,” is not       label in the retail store, which is generally the
                       true and overstates the role of the        purchase point for the consumer. The OIG stands by
                       retailer relative to product labeling.     its conclusion because previous RSL’s have
                       Labeling of products is controlled by      identified consistent problems with products being
                       the product manufacturer, and EPA          labeled as ENERGY STAR that were not on the
                       has a number of mechanisms in place        Agency’s qualified list. Furthermore, the RSL’s also
                       to ensure appropriate use of the           found problems with products that are qualified as



                                                       33

                        ENERGY STAR label. The in-store            ENERGY STAR, but are not labeled consistently as
                        labeling check is used primarily to        ENERGY STAR.
                        update the ENERGY STAR
                        qualifying product lists and check for     The OIG does not draw any conclusions regarding
                        broad systemic issues. The vast            the role of the retailer in the labeling or mislabeling
                        majority of issues found in the retail     of ENERGY STAR products. We highlight issues
                        setting are ones where the product is      raised by the RSLs and EPA’s lack of oversight over
                        qualified for the ENERGY STAR but          the follow up process. As indicated in the draft
                        the manufacturer is behind in              report and in several RSLs, the issues found can
                        submitting the information to EPA.         mostly be attributed to the fact that manufacturers
                        If products are found that do not          are able to label their products prior to submitting
                        meet the ENERGY STAR                       certification test results to EPA.
                        specifications, EPA pursues these
                        logo violations using standard             The Agency’s statement with regard to the primary
                        protocols. EPA maintains                   purpose of the RSL’s contrasts their stated goals of
                        information on the status of all such      the program. As the OIG cited within Chapter 5 of
                        violations.                                the draft report, the RSL seeks to address four goals.
                                                                   The assessment of the accuracy of product labeling is
                        See Appendix D, Page 41, second            one of EPA’s stated goals of the RSL.
                        full bullet
9    Chapter 5, pages   According to the Agency the IG             The OIG does not present this statement out of
     22                 presented the statement,                   context. The draft report states, “Manufacturers may
                        Manufacturers may label and sell           label and sell products as ENERGY STAR prior to
                        products as ENERGY STAR-qualified          submitting test results to the Agency for up to a
                        up to a year before submitting test        year.” As highlighted in Chapter 5, under “Products
                        results to the Agency, out of context.     Marketed As ENERGY STAR Prior to EPA
                        This practice is consistent with the       Notification”, the Agency does not require
                        product certification process the IG       manufactures to submit certification and supporting
                        cites and the self-certification           documentation prior to using the ENERGY STAR
                        process overall. EPA has not found         label. This is a control weakness for ensuring the
                        there to be significant issues with this   integrity of the label is not compromised. While the
                        process. Manufacturers are                 Agency states in its response that the OIG has used
                        providing testing information that         this fact out of context, they further state that this
                        shows that their products meet the         practice is consistent with EPA’s application of the
                        requirements of the ENERGY STAR            self-certification process.
                        program. A more involved effort at
                        this point of the ENERGY STAR
                        product certification process would
                        present unnecessary costs to the
                        federal government and undue delay
                        to the private sector.

                        See Appendix D, Page 41, third full
                        bullet
10   Recommendation     EPA experience is that misuse of the       The OIG does not consider the Agency’s response to
     5-1, page 23       ENERGY STAR label is extremely             this recommendation adequate to meet the intent of
                        low. For example, trademark                the recommendation. The scope of the OIG’s review
                        violations as a percent of companies       was on the Agency’s oversight of the use of the
                        using ENERGY STAR in their                 ENERGY STAR label. Specifically, the focus of the
                        advertising is measured at 0.6             OIG’s review was on the retail store level
                        percent from 2003 to 2006. EPA has         assessments conducted by the Agency and not on the
                        well established standards to ensure       use of the ENERGY STAR label in general
                        that identified labeling misuse is         advertising. The statistics provided by the Agency in
                        systematically pursued and resolved,       their response, while they may be accurate, are not
                        including when misuse is identified        relevant to the review of the retail store level



                                                        34

                      as part of the retail store level        assessments.
                      assessments (RSL). These standards
                      which have been in place for many        In addition, while EPA states they have “well
                      years are documented in the report,      established standards” in place to ensure label misuse
                      Maintaining the Value of ENERGY          is systematically resolved; the OIG was not provided
                      STAR -- 2006, finalized in spring        any documentation regarding specific follow up
                      2007. This document includes a new       actions taken related to inconsistencies identified the
                      flowchart documenting the protocol       retail store level assessments.
                      for responding to labeling violations
                      discovered as part of RSL. EPA has       Furthermore, the document entitled, “Maintaining
                      enhanced its management review of        the Value of ENERGY STAR – 2006”, stated by EPA
                      the status of the labeling violations.   in their response as “finalized in spring of 2007” still
                                                               has not been officially issued. As of July 2007, it
                      Status: Complete                         still did not appear in any form on their official web
                                                               site. EPA’s statement that these standards have been
                      See Appendix D, Page 39                  in place for years directly contradicts what the OIG
                                                               was told during the review. Furthermore, the “new
                                                               flowchart” referenced was developed at the end of
                                                               our fieldwork and later incorporated into the
                                                               Agency’s draft guidance document. Prior to that, the
                                                               officials were unclear as to what follow up actions
                                                               were being taken by the contractor when issues
                                                               where identified during the assessment.
                                                               Furthermore, EPA has not routinely required the
                                                               contractor to provide final reports on the RSL
                                                               reviews.

                                                               While the Agency states in the response that they are
                                                               enhancing the RSL reports, there is no specificity as
                                                               to what enhancements EPA has made. Reports
                                                               should still provide information related to issues
                                                               found and document the status of follow up actions.
                                                               Therefore, the Agency’s response does not meet the
                                                               intent of this recommendation. In order for the RSL
                                                               program to be cost effective, EPA must report what
                                                               was found and how follow up actions were resolved.
                                                               In addition, without such detailed reporting EPA has
                                                               no basis to conclude that the misuse of the label is
                                                               “extremely low.” The use of detailed reporting also
                                                               will assist the Agency in identifying systematic
                                                               problems and enable them to reduce problems in the
                                                               future.

11   Recommendation   The issue of concern to the IG did       The OIG’s recommendation relates to the lack of
     5-2, page 23     not stem from a lack of standard         oversight by Agency staff regarding the RSL. The
                      operating procedures for contract        fact that many of the assessments were never issued
                      oversight (i.e. finalization of the      in final is evidence that the Agency was not
                      reports was not contractually            providing proper oversight. Many of the reports
                      required), but concerns by the IG that   lacked conclusions and according to the Agency the
                      EPA was not finalizing field data that   numbers were not reflective of the final results.
                      needed to go through an important        Furthermore the contract for the RSL does require a
                      reconciliation process before it could   final report as a deliverable and should be obtained
                      be actionable. Accordingly, we           as a standard practice.
                      recommend that the IG reword this
                      recommendation to state “Establish       In addition, one of the benefits of the RSL is that it
                      standard operating procedures so that    can be used as a mechanism to identify systematic


                                                     35

RSL field reports are routinely          problems or strengths of the program. However, we
finalized.” EPA has concluded that       found the Agency was not tracking issues found
the standard report format can be        during the RSL in an effort to identify “bad
adjusted so that report can be           performers” or systematic strengths or weaknesses.
finalized in a cost efficient manner
from the results of the initial          The Agency’s proposed corrective action does not
screening work; this change in           meet the intent of the recommendation. Simply
practice has been instituted.            revising the format of the report but not requiring the
                                         report to be finalized is not acceptable. Furthermore,
Status: Complete As of June 2007,        in order for the recommendation to be considered
the standard report format for the       complete the OIG needs to see documentation of
field studies has been revised so that   what will be included within the final reports and
the reports can be finalized in a cost   how the process was modified.
efficient manner, and the change in
practice has been instituted             It continues to be the OIG’s position that a final
                                         report is necessary. At a minimum, the report should
See Appendix D, Page 39                  document the results of the RSL reviews, how any
                                         inconsistencies or mislabeling instances were found,
                                         the nature of the inconsistencies, any follow up
                                         actions taken and how issues were resolved.




                                36

                                                                                     Appendix D

                                 Agency Response
                                          June 28, 2007

MEMORANDUM

SUBJECT: 	     Comments on the Draft Evaluation Report: ENERGY STAR
               Program Can Strengthen Controls Protecting the Integrity of the Label

FROM: 	        Elizabeth Craig
               Deputy Assistant Administrator

TO: 	          Jeffrey Harris, Director
               Cross-Media Issues, Office of Program Evaluation

        Thank you for the opportunity to comment on the Draft Evaluation Report: ENERGY
STAR Program Can Strengthen Controls Protecting the Integrity of the Label. We are pleased
that the Inspector General’s Office found no significant issues relating to the quality or
performance of ENERGY STAR qualified products or the overall success of the ENERGY
STAR labeling program. At the same time, we appreciate and share your interest in making the
ENERGY STAR Program as effective as possible.

        Accordingly, we have implemented most of the recommendations provided in your draft
report and would like to report on the status of this implementation. We are particularly pleased
to report that we have implemented four of the six recommendations and initiated the
implementation of a fifth. However, there is one recommendation that we do not find to be a
useful addition to improving the operation of the ENERGY STAR program and ask for that
recommendation to be deleted.

        In addition, we have identified that the Report contains some important factual errors as
well as other misstatements. We are providing comments on these issues so that the report can
better represent how the ENERGY STAR program works and contribute to the continuing
success of the ENERGY STAR program.

OAR Response to IG Recommendations in Draft Report and Status of Implementation

Recommendation 3.1: Clarify and document the decision criteria for revising an ENERGY
STAR specification, including identifying circumstances when a specification would not be
revised, despite a high market share of qualified products.

        OAR Response: EPA uses the same principles for initial specification of a product and
        for revising an ENERGY STAR specification. However, we believe it is a useful and
        valuable addition to program documentation to explicitly describe the conditions under
        which the EPA undertakes a revision of an existing ENERGY STAR specification and, in


                                                37

       particular, to explain why high market share in and of itself is not necessarily sufficient to
       warrant a specification revision.

       Status: Complete	 See attached “Factors Considered: Initiating an
                         ENERGY STAR Specification Revision,” completed June 26,
                         2007

Recommendation 3.2: Monitor the percentage of Energy Star qualified products as compared to
total available products in a product category.

       OAR Response: We do not find this recommendation to be a useful addition to
       evaluating and improving the operation of the ENERGY STAR program. Instead, we
       believe that the investment we have made in routinely tracking market share as a percent
       of product sales more closely tracks with program results. This provides information that
       directly translates to energy and greenhouse gas savings and plays an important role in
       our program evaluation process. Furthermore, EPA already collects information on the
       percent of models in the specification setting process which is when it is most
       programmatically useful

       Status: Suggest removing this recommendation given that ENERGY STAR qualified
       models are already tracked as part of the specification revision process.

Recommendation 4.1: Establish a formal Quality Assurance Program for products and
verification testing to provide a reasonable assurance results are representative of the products
available and the certification of others (self- and third party) may be relied upon.

       OAR Response: EPA has a comprehensive program in place for assuring the proper use
       of the ENERGY STAR label, including that the products displaying the label meet the
       performance requirements. Verification testing is one of many checks on the certification
       process that EPA has established to cost-effectively protect the integrity of the ENERGY
       STAR program. Other important elements include formal partnership agreements with
       manufacturers and an initial certification process that uses standardized, formal test
       procedures and the review of submitted data. EPA also leverages a number of third-party
       test programs, where they exist. These include programs established by trade
       associations and relied upon by the federal government to ensure compliance with federal
       efficiency standards and other federal programs. EPA will establish formal
       documentation – a Quality Assurance Program – on the various elements of its
       compliance monitoring system for ENERGY STAR qualified products, how these
       elements fit together, and on how this program provides reasonable assurance that the
       results are representative of the products available.

       Status: Initiated 	    Expected to be complete in 9 months

Recommendation 4.2: Coordinate verification testing with product specification setting and
revision process to ensure products are selected in a timely and relevant basis.




                                                 38

       OAR Response: EPA currently selects product categories that are to undergo
       verification testing in a given year based on a number of factors including whether or not
       the specification has been recently revised. EPA has included this factor in written
       documentation for product selection for verification testing; this was completed in May
       2007. As an example, EPA is including imaging products in the next round of
       verification testing. The ENERGY STAR specification for this product category was
       effective as of April 2007 and this testing will provide important information on the
       transition to this new specification.

       Status: Complete

Recommendation 5.1: Establish standards to ensure label inconsistencies found during the
retail store level assessments are systematically recorded, appropriate actions taken and
inconsistencies are tracked until resolved or otherwise complete.

       OAR Response: EPA experience is that misuse of the ENERGY STAR label is
       extremely low. For example, trademark violations as a percent of companies using
       ENERGY STAR in their advertising is measured at 0.6 percent from 2003 to 2006. EPA
       has well established standards to ensure that identified labeling misuse is systematically
       pursued and resolved, including when misuse is identified as part of the retail store level
       assessments (RSL). These standards which have been in place for many years are
       documented in the report, Maintaining the Value of ENERGY STAR -- 2006, finalized in
       spring 2007. This document includes a new flowchart documenting the protocol for
       responding to labeling violations discovered as part of RSL. EPA has enhanced its
       management review of the status of the labeling violations.

       Status:   Complete

Recommendation 5.2: Establish standing operating procedures for contract oversight to assure
that all contractually required work is complete and meets the contract requirements.

       OAR Response: The issue of concern to the IG did not stem from a lack of standard
       operating procedures for contract oversight (i.e. finalization of the reports was not
       contractually required), but concerns by the IG that EPA was not finalizing field data that
       needed to go through an important reconciliation process before it could be actionable.
       Accordingly, we recommend that the IG reword this recommendation to state “Establish
       standard operating procedures so that RSL field reports are routinely finalized.” EPA has
       concluded that the standard report format can be adjusted so that report can be finalized
       in a cost efficient manner from the results of the initial screening work; this change in
       practice has been instituted.

       Status: Complete	     As of June 2007, the standard report format for the field
                             studies has been revised so that the reports can be finalized in a
                             cost efficient manner, and the change in practice has been
                             instituted.




                                               39

OAR Recommendations to Address Factual Errors and Other Misstatements

       We remain concerned that the draft Report contains important factual errors as well as
other misstatements about the program that suggest there are problems where no problems have
been found. We seek to address these so that this report can better represent how the ENERGY
STAR program works and contribute to the continuing success of the ENERGY STAR program.
We encourage you to reexamine and modify the report as it relates to the issues below.

•	     Criteria for initiating and revising ENERGY STAR specifications were unclear and
       not documented. EPA has clearly articulated principles, formally published in 2003
       and available on our web site, for ENERGY STAR specifications. These principles are
       also employed as part of revising ENERGY STAR specifications. The principles are
       well-documented, distributed broadly with industry and used consistently in the
       specification setting and revision processes.

•	     No reasonable assurance that the self-certification process is effective. Self-
       certification is a broadly used practice in the United States and other countries. It is
       generally viewed as effective and has been employed for decades across many types of
       programs that touch U.S. consumers. Self-certification programs are viewed as
       particularly appropriate in countries such as the United States that have competitive
       market places that allow manufacturers to question their competitors and that also have
       robust consumer protection activities. Importantly, there is no evidence that these self-
       certification programs do not work. The ENERGY STAR program was designed using
       self-certification in the early 1990’s. Over the last fifteen years, there has been no new
       information to suggest that self-certification is not a reasonable approach in the U.S.
       Two other examples of well-known programs that rely upon self-certification include the
       EnergyGuide label and the food nutrition label. A review of these two programs relative
       to the ENERGY STAR program would show that EPA has instituted a comprehensive
       program in to assure the proper use of the ENERGY STAR label that goes well beyond
       those of other programs. This includes product verification testing, as well as the
       development of product-specific post-manufacturing testing programs in product areas
       requiring additional attention. EPA should be recognized for instituting these additional
       practices as opposed to faulted for relying upon the broadly used and accepted practice of
       self-certification.

              EnergyGuide Label
              Since 1980, manufacturers of appliances have been required to label their
              products with energy use information in the form of the Federal Trade
              Commission’s yellow Energy Guide label. Similar to the ENERGY STAR
              Program, manufacturers agree to test their products, submit data and attach a
              label. No prior approval is needed. This label is used on thousands of products
              that consumers purchase each year.




                                               40

                Food Nutrition Label
                Since 1990, producers of most processed food products have been required to
                label those items with nutrition information. Producers are required to measure
                required nutrients and report them on food packaging. The FDA does not require
                prior approval to verify manufacturer labels nor does it track labeling by food
                producers. These labels are used to guide billions of food-related purchasing
                decisions each year.

y	      The Agency’s verification testing lacks a clear documented methodology governing
        products selected for verification tests and does not test for statistically valid results.
        This statement needs further context. EPA has a clear methodology for its verification
        testing program which it has used for more than five years and which it has further
        documented in a technical addendum to the work order for this testing. Further, this
        testing is designed to identify systemic issues and to act as a deterrent. If initial issues are
        found, EPA places the burden on the manufacturer to do additional product testing. EPA
        also undertakes additional work to address any systemic issues such as establishing
        broader testing programs, where warranted. This approach is substantially more cost-
        effective than pursuing statistically valid testing across the 40,000 or more products
        currently represented in the ENERGY STAR program.

y	      Little oversight of the ENERGY STAR label in retail stores. This statement is not true
        and overstates the role of the retailer relative to product labeling. Labeling of products is
        controlled by the product manufacturer, and EPA has a number of mechanisms in place
        to ensure appropriate use of the ENERGY STAR label. The in-store labeling check is
        used primarily to update the ENERGY STAR qualifying product lists and check for
        broad systemic issues. The vast majority of issues found in the retail setting are ones
        where the product is qualified for the ENERGY STAR but the manufacturer is behind in
        submitting the information to EPA. If products are found that do not meet the ENERGY
        STAR specifications, EPA pursues these logo violations using standard protocols. EPA
        maintains information on the status of all such violations.

     •	 Manufacturers may label and sell products as ENERGY STAR-qualified up to a
        year before submitting test results to the Agency. The IG presents this statement out
        of context. This practice is consistent with the product certification process the IG cites
        and the self-certification process overall. EPA has not found there to be significant issues
        with this process. Manufacturers are providing testing information that shows that their
        products meet the requirements of the ENERGY STAR program. A more involved effort
        at this point of the ENERGY STAR product certification process would present
        unnecessary costs to the federal government and undue delay to the private sector.

    For your consideration, we have also provided more detailed feedback below on several
sections of the Draft Report to address other errors and/or misstatements with regard to the
ENERGY STAR program.

Attachments




                                                  41

                             Factors Considered: 

             Initiating an ENERGY STAR Specification Revision

The ENERGY STAR product labeling program was designed to ensure that key consumer
preferences are met – economic savings, product performance and the reward of protecting the
environment. In order to consistently deliver on these expectations, the ENERGY STAR
program has six established principles that guide decisions in terms of whether and at what level
to establish an ENERGY STAR specification and when to revise it.

   1)      Significant energy savings can be realized on a national basis
   2)      Product performance can be maintained or enhanced with increased energy
           efficiency.
   3)      Purchasers will recover their investment in increased energy efficiency within a
           reasonable time.
   4)      Energy efficiency can be achieved with several technology options, at least one of
           which is non-proprietary.
   5)      Product energy consumption and energy performance can be measured and verified
           with testing.
   6)      Labeling would effectively differentiate products and be visible for purchasers.

Each time an ENERGY STAR efficiency level is established, whether for the first time or as part
of a revision, these principles are balanced to ensure that the specified level will deliver
significant aggregate energy savings while differentiating products that are cost-effective to the
consumer and do not compromise functionality or performance. In order to effectively
differentiate products, the specified efficiency level must allow for a reasonable, nationally
available selection of products from a range of manufacturers. In many circumstances, setting an
ENERGY STAR efficiency level so that the top 25% of models in terms of efficiency can meet
it, offers the desired amount of selection and availability while also promising significant energy
savings, cost-effective options and no compromise in performance.

The ENERGY STAR product labeling program delivers energy savings and greenhouse gas
reductions by facilitating the purchase of more efficient product alternatives. Accordingly, an
increase in qualified product market share after an ENERGY STAR specification goes into effect
is an important measure of program success. Further, the value of the program is not diminished
when there is ultimately broad availability of qualified product in the market place. No matter
what the market share of ENERGY STAR qualified products, a consumer who purchases a
labeled product gets a product that will contribute to a cleaner environment and save them
money without sacrifice in performance.

At the same time, when ENERGY STAR qualified products represent a high percentage of the
market for a given product category, it suggests there may be an opportunity for additional
savings. In general, once market share for a given product category exceeds 50%, that product
category is identified for ongoing evaluation in terms of a possible revision. Whether and when
a specification revision goes forward is determined by an assessment of market conditions
against the key principles.



                                                42

For example, although the market share of ENERGY STAR qualified computers under version
3.0 of the specification exceeded 90% for some time, the specification was not immediately
revised because of the challenges associated with addressing “active power.” To capture
additional meaningful energy savings (principle 1), the existing computer specification needed to
extend beyond “stand-by power” to address “active power.” Significant time and coordination
were required to establish a measurement approach (principle 5) and to overcome the challenge
associated with establishing an “active power” specification that did not compromise
functionality (principle 2). It was not until these issues were addressed that a specification
change, consistent with ENERGY STAR program principles, could be justified.




                                               43

                                                                            Appendix E

                                      Distribution

Office of the Administrator
Principal Deputy Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Followup Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of Air and Radiation
Acting Inspector General




                                               44

